Artem Koshkalda
3408 Chitgar Place,
San Jose, CA, 95117
email: artemkoshkalda@gmail.com
Pro Se

THE SUPREME COURT
OF THE UNITED STATES
Petitioner
ARTEM KOSHKALDA,

CASE NO. 20-483
PROOF OF SERVICE
DECLARATION IN SUPPORT OF
PROOF OF SERVICE PURSUANT
TO THE SUPREME COURT RULE
29.

Page 1 of 3
PROOF OF SERVICE

I am a Petitioner herein, over the age of eighteen years of age, and reside at
3408 Chitgar Place, San Jose, CA, 95117.
This Declaration is submitted attesting the facts and circumstances of
service made in compliance with the Supreme Court Rule 29.
As to the facts in this declaration, I have personal knowledge of such
facts, except those facts on information and belief, and as to those facts, I believe them
to be true. If called upon to testify as to the matters set forth in this declaration, I
could and would completely testify thereto.
On November 16, 2020, I placed 40 copies of my Petition for Writ of
Certiorari to the USPS large priority box and attached pre-paid USPS label pursuant
to the Supreme Court Rule 29(2).
Electronic copy of the following documents was served upon parties listed below
pursuant to the agreement between parties:
Reply-Brief in support of Artem Koshkalda's Petition for Writ Of Certiorari;
Certificate of Service.
On the persons/parties/entities by the following method(s):
Annie S. Wang (CA SBN 243027)
Email: annie@wangalc.com
WANG LAW CORPORATION,
1150 Foothill Boulevard, Suite E
La Canada Flintridge, California 91011
Telephone: 818.500.3200
Attorneys for Respondents Seiko
Epson Corp., and Epson America,
Inc.
X. (BY E-MAIL). Pursuant to agreement between parties I served Respondents via
email annie@wangalc.com.

Page 2 of 3
PROOF OF SERVICE

I declare under the penalty of perjury of the United States that the foregoing is
true and correct, and this declaration was executed on November 16, 2020 at San Jose,
California.

DATED: November 16, 2020

Pro Se
By:
Artem Koshkald etitioner

Page 3 of 3
PROOF OF SERVICE

Case No. 20-483
In The Supreme Court of the United States

Case No.18-15124 / 18-15245

ARTEM KOSHKALDA,
Petitioner
v.
SEIKO EPSON CORPORATION, ET. Al.,
Respondent

On Petition For A Writ Of Certiorari To The United States Court Of
Appeals For The Ninth Circuit

CERTIFICATE OF COMPLIANCE ISO PETITION FOR A WRIT OF
CERTIORARI

Artem Koshkalda
3408 Chitgar Pl, San Jose, CA, 95117
Appearing Pro Se
November 16, 2020

Page 1 of 2

As required by Supreme Court Rule 33.1(h), I certify that the Reply-Brief filed
in support of Koshkalda's Petition for a Writ of Certiorari in the above-referenced
case contains 2,813 words.
I declare under penalty of perjury of the United States that the foregoing is
true and correct. Executed on November 16, 2020.

Pro Se
DATED: November 16, 2020
By:
Artem Koshlcrlda, Petitioner

Page 2 of 2

